<html>
<title> - THE VA'S FISCAL YEAR 2007 INFORMATION TECHNOLOGY BUDGET THURSDAY, MARCH 2, 2006 U.S. HOUSE OF REPRESENTATIVES, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS, COMMITTEE ON VETERANS' AFFAIRS, Washington, D.C. The Subcommittee met, pursuant to notice, at 10:00 a.m., in room 340, Cannon House Office Building, Hon. Michael Bilirakis [Chairman of the Subcommittee] presiding. Present: Representatives Bilirakis, Strickland, Reyes, and Buyer. MR. BILIRAKIS. Good morning. Today we will examine the Department of Veterans Affairs (VA) information technology (IT) budget and review VA's IT expenses. It is certainly, as you know, not new to the Committee, nor is it new to the Subcommittee. However, this year we have for the first time a line-item breakdown of the VA's IT budget. Previously we would have to look at over 50 areas of the budget to figure out the Department's IT budget. On November 30 of last year, the President signed fiscal year 2006 Military Quality of Life and Veterans' Affairs Appropriation Act (PL 109-114), which included in the conference report</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
THE VA'S FISCAL YEAR 2007 INFORMATION TECHNOLOGY BUDGET


THURSDAY, MARCH 2, 2006

U.S. HOUSE OF REPRESENTATIVES,     
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS,
COMMITTEE ON VETERANS' AFFAIRS,
Washington, D.C.

	The Subcommittee met, pursuant to notice, at 10:00 a.m., in room 340, 
Cannon House Office Building, Hon. Michael Bilirakis [Chairman of the 
Subcommittee] presiding.

	Present:  Representatives Bilirakis, Strickland, Reyes, and Buyer.

	MR. BILIRAKIS.  Good morning.  Today we will examine the Department of 
Veterans Affairs (VA) information technology (IT) budget and review VA's IT 
expenses.  It is certainly, as you know, not new to the Committee, nor is it new 
to the Subcommittee.  However, this year we have for the first time a line-item 
breakdown of the VA's IT budget.  Previously we would have to look at over 50 
areas of the budget to figure out the Department's IT budget.
	On November 30 of last year, the President signed fiscal year 2006 
Military Quality of Life and Veterans' Affairs Appropriation Act (PL 109-114), 
which included in the conference report -- which a provision that directed the 
VA to provide $1.2 billion for VA IT and IT restructuring, and further directed 
the monies should be set up as a new IT systems account.  The law also 
authorizes the transfer of funds among various accounts, subject to 
Congressional notification and approval to perfect the accounting structure of 
the IT systems account.  The law further mandated that the VA provide a 
comprehensive listing of priority projects for fiscal year 2006 not later than 
30 days after enactment of the act.
	At this point, I think it is important to note that the Administration has 
requested $1.3 billion for IT funding in fiscal year 2007.  While IT issues may 
seem mundane to some, and apparently they must, we make a significant investment 
in information technology (IT) each year, and I believe it is important that we 
ensure we are getting the best bang for our buck.
	Not included in my prepared remarks is the fact that we have -- Mr. 
Secretary and others of you, we have commended you.  We have complimented you in 
the past, because even though we've been very frustrated and very disappointed 
in the progress of IT within VA.  We do feel that it is probably far ahead from 
many of the other branches of the government, and we have complimented and 
commended you.
	Having said that, of course, that is kind of the good news.  Consequently, 
today's hearing marks over a half-dozen hearings held by the Committee on VA IT 
issues since 2000.  Previous hearings have focused not only on the budget, but 
also on specific programs and the VA's enterprise architecture, or organization 
of the Department's IT.  While the purpose of the hearing is for the 
Subcommittee to act in due diligence and conduct oversight on the newly formed 
VA IT spending account, VA IT reorganization is a major focus of the Full 
Committee, and part of this evolving process. We are very complimented that the 
Full Committee Chairman, Mr. Buyer, is here with us this morning.
	Therefore, we would like to hear how the Department is proceeding with IT 
reorganization.  During the September 14th, 2005 Full Committee hearing, led by 
Mr. Buyer, Deputy Secretary Mansfield stated that the Department was adopting a 
federated model for VA's IT infrastructure.  Deputy Secretary Mansfield also 
reiterated VA's plans to move to a federated IT infrastructure model before the 
Senate Veterans' Affairs Committee in October of last year.
	However, as of last night, and I understand some things may have taken 
place this morning, but as of last night, March 1st, VA had yet to approve its 
IT reorganization implementation plan to move to a federated model.
	Given the slow pace of the Department's restructuring, the issue of VA IT 
reorganization funding is of concern to us.  In fiscal year (FY) 2006, the VA 
received $7.7 million for the Department's enterprise architecture, the 
blueprint for the IT structure of the VA, to assist the Department in its IT 
reorganization.  In this FY 2007, VA has requested $12.6 million,  and yet the 
VA appears to have made little progress towards IT reorganization.
	The Subcommittee also has some concern regarding some of last year's 
funding projects.  Included in the list of VA IT projects for FY 2006 was $25.9 
million in funding for Financial Logistics Integrated Technology Enterprise 
(FLITE).  For FY 2007, VA requested $39.5 million for FLITE.  The Subcommittee 
would like to learn more about FLITE, and whether or not this is associated with 
Core FLS.  I remind you, the Core FLS initiative -- I don't think I have to 
remind you, but I will anyhow -- the Core FLS initiative in Bay Pines, Florida, 
bellied up to the tune of $342 million after four years of poor or little 
project management.
	Also of concern are six IT projects that are projected to run on the new 
VistA system once the existing VistA legacy system is re-hosted.  For instance, 
the scheduling replacement project that has been in development for 10 years, 
and aw we understand is not even close to implementation, as we understand.  
According to VA's budget, almost all of the costs associated with these programs 
are for development, with little to no funding for operations and maintenance.
	The Subcommittee and the Full Committee are extremely concerned that VA 
risks spending millions of dollars for developing software applications that 
will not run on the re-hosted program.  As a matter of fact, VA has not provided 
a plan for re-hosting the 25 year-old system, but has gone ahead and started new 
software applications for the new-but-not-yet-in-place system.
	Today, we will hear testimony from Deputy Secretary Gordon Mansfield.  The 
fact that the Secretary is the only witness to this hearing is an indication I 
think of the fact that we place great focus on this subject, and want to spend 
as much time as we can on this subject with him, and with of course the good 
people that he has brought with him.  He is accompanied by the Honorable 
Jonathan B. Perlin, Dr. Perlin, Under Secretary for Health; the Honorable Daniel 
L. Cooper, Under Secretary for Benefits; William F. Tuerk -- Tuerk or Turk?
	MR. TUERK.  Tuerk.  Tuerk, Mr. Chairman.  
	MR. BILIRAKIS.  Under Secretary for -- I'm Greek Orthodox, so I tend to 
not use that word, forgive me.
	MR. TUERK.  I understand.
	MR. BILIRAKIS.  I don't know, why did I have to say that?  
	Under Secretary for Memorial Affairs; the Honorable Robert Henke, the 
Assistant Secretary for Management; and the Honorable Robert McFarland, 
Assistant Secretary of Information Technology.
	I, along with the other Members, look forward to hearing your testimony 
and answers to Members' questions. 
	[The statement of Mr. Bilirakis appears on p. 30]

	MR. BILIRAKIS.  Steve, you don't mind if I recognize Mr. Strickland next, 
do you?  I would now recognized Mr. Strickland, my good friend from Ohio, 
Ranking Democratic Member.
	MR. STRICKLAND.  Thank you, Mr. Chairman, and to the Chairman of the Full 
Committee, my statement will be very short.  So thank you for allowing me to 
precede, I appreciate it.
	MR. STRICKLAND.  Thank you, Mr. Chairman.  I look forward to hearing the 
VA's justifications for its fiscal year 2007 information technology systems 
request of $1.257 billion, an increase of $43 million over the fiscal year 2006 
enacted level.  This year, in our Democratic views and estimates, we recommended 
$1.249 billion, an amount lower than the Administration's budget request.  We 
expressed concerns over funding levels for the VA's Financial and Logistics 
Integrated Technology Enterprise Program, or FLITE, and we recommended a 
decrease for this program.  The majority has also expressed concerns regarding 
this program, and I know that I speak for all of us here in looking forward to 
your discussion regarding the FLITE program.
	My Republican friends, in their views and estimates, went further than we 
did in recommending additional cuts, eliminating funding for the health data 
repository, HealtheVet, VistA, pharmacy reengineering, and IT support scheduling 
replacement, VistA imaging, and VistA laboratory IS systems reengineering 
programs.  They also recommended dramatically reducing funding for the VistA 
legacy system.
	Although I believe that we should look to any savings possible in the VA's 
IT account, I also believe that we should ensure that the VA has the resources 
to do the job today, and that any cuts that are ultimately made do not 
jeopardize larger savings that may be achieved down the road.  This is 
especially important when we are dealing with the VA's electronic health record 
program, which is rightly held up as a model for other health care systems.  We 
must ensure that the actions we take in regards to the VA's IT budget do not 
ultimately mean veterans not receiving the quality care they deserve.
	But before any actions are taken, the VA needs to produce a re-hosting 
plan and a transition plan for these programs.  They must make sure that the VA 
has the resources to meet its essential IT needs, and does not seek funding from 
other accounts, especially the Medical Services.  At the same time, we on this 
Committee do not want to be throwing good money after bad, which arguably has 
happened in the IT area before.
	I would like the VA to explain to us what it is doing in the area of cyber 
security, an issue all of us on this Subcommittee care about.  In a bipartisan 
manner, we recommended an increase of $20 million for fiscal year 2007.
	Finally, I am interested in hearing from the VA about its experiences so 
far this fiscal year in the IT area.  The VA is dealing with the new 
appropriations account structure in relation to IT, as well as explicit 
requirements mandated in the fiscal year 2006 spending bill.  I believe that a 
separate IT account will afford us a better tool in which to conduct our 
oversight of the VA's IT efforts, or lack of efforts.  I would like to hear from 
the VA how they are handling this, how it is ready to meet the challenges before 
it, and address the concerns of this Subcommittee.  And I thank the witnesses 
for being here, and Mr. Chairman, I thank you for your courtesy.
	MR. BILIRAKIS.  And I thank the gentleman.
	Chairman of the Full Committee, Mr. Buyer.
	MR. BUYER.  I'd like to thank the Chairman, the Ranking Member, and the 
members of the O&I Subcommittee for your leadership on the issue, and I would 
only like to make this comment to our friends in the Administration:  as you 
know, Capitol Hill can be a highly volatile place politically.  So when there 
are moments in time when Republicans and Democrats stand together unanimously on 
a particular issue, it is noteworthy.  And that is what has happened here with 
regard to IT.
	We have our own thoughts and our own judgments.  We recognize our 
oversight is part of the accountability function with regard to the dollar, and 
we also embrace counsel and seek the wisdom that other companies throughout the 
world also seek.  And I think the Secretary was right, Secretary Mansfield, when 
VA sought out Gartner.  So you make an investment in Gartner consulting, and 
they give you their best judgment, and then it is not followed.
	We then give our recommendations, and we proceed together with the 
centralized model, take it to the House floor, and it is voted 408 to zero.  Now 
that is a pretty strong vote.  I am just letting you know, on matters of 
substance, very tough issues of substance, 408 to nothing, you can't trump that, 
you can't throw it away, you can't ignore it.
	So we look at this one and go, "Okay, the Senate wants to be deferential.  
We understand the Senate.  We understand how they operate."  So they want to be 
deferential, they don't want to micro-manage.  You go over to the Senate, you 
try to operate by consensus sort of the leadership that the secretary has given 
to you, Secretary Mansfield, so you try to work through this and you come up 
with the federated model.
	The federated model then appears to be the political compromise model, but 
what does it mean, "federated model"?  Does it mean that which was delivered to 
us in testimony by Gartner Consulting last year? Or is it something different?  
So I don't even know where you are going.  I don't know what "federated" means.  
Is "federated" going to mean that model for which Gartner has advised and gave 
counsel to us and for which you testified last year before the Senate, about 
which Larry Craig, the Chairman, then says, "I will hold you accountable," Or 
are you walking this to the status quo? 
	And if that is what is happening, what will happen here is a very ugly 
confrontation between the Committee and the Administration, and we don't want 
that, because we want to be able to bring perfection and efficiencies to this 
system.  And we can be sensitive with regard to Dr. Perlin's counsel about the 
development, and these crucibles of initiative and creativity, we can be 
sensitive to all that.  But we are losing our patience up here.  I just want you 
to know that.  And so let me yield back to the Chairman.
	MR. BILIRAKIS.  Very well said, Mr. Chairman.  Mr. Reyes, opening 
statement, sir?  No, all right.  
	Well, that being the case, Mr. Secretary, I'm not even going to turn on 
the clock or the light.  You have the floor, sir.  You can certainly bring in 
any of your people at any point if you would like.  I am hoping that even though 
the -- I suppose you might say the focus of this hearing is supposed to be the 
breakdown of the budget and that sort of budget areas, but you can see that our 
frustrations are such that even though you may satisfy what used to be the 50 
earmarks and whatnot, what are now 50 earmarks or whatever that figure is, that 
we are still concerned about progress, and I mean real progress.  So hopefully, 
you will work that into any prepared statement you have.  Thank you for being 
here sir, and for your service to our country.

STATEMENT OF GORDON MANSFIELD, DEPUTY SECRETARY, U.S. DEPARTMENT OF VETERANS 
AFFAIRS, ACCOMPANIED BY JONATHAN B. PERLIN, UNDER SECRETARY FOR HEALTH; 
DANIEL L. COOPER, UNDER SECRETARY FOR BENEFITS; WILLIAM F. TUERK, UNDER 
SECRETARY FOR MEMORIAL AFFAIRS; ROBERT HENKE, ASSISTANT SECRETARY FOR 
MANAGEMENT; AND ROBERT MCFARLAND ASSISTANT SECRETARY FOR INFORMATION AND 
TECHNOLOGY

	MR. MANSFIELD.  Thank you, Mr. Chairman, and Mr. Chairman, Mr. Strickland, 
and Mr. Reyes.  I appreciate the opportunity to be here to talk about our IT 
programs.
	Let me begin then by updating you on the department's ongoing 
reorganization.  I can report that the VA is making steady process in adopting a 
federated management model that will result in considerable efficiencies.  Our 
federated model separates IT management structure into two domains: operations 
and maintenance, and development.  The CIO is responsible for the operations and 
maintenance domain, with oversight and accountability over all IT budgets and 
projects within the VA.  Administrations and staff offices will remain 
responsible for the application development domain, following the policies and 
framework established for the department.
	Let me be clear that under the federated model, the budget will be 
centralized to the Chief Information Officer, as will security.  Development 
will involve the CIO's review and budget approval.
	On October 19th, the Secretary approved the federated IT management system 
concept.  Under that plan the CIO is charged with developing an interim 
federated model, and a follow-on implementation plan.  And in January, 2006, our 
management team was briefed on an additional draft of a framework presented to 
us by Gartner for the federated model.  The next step is to flesh out this 
framework, and adopt the final structure.
	VA management understands the critical importance of this endeavor, and 
will remain highly involved in the organizational realignment.  We also 
understand that leadership changes culture, and a culture change has to take 
place in order for buy-in to occur at all levels, Department-wide.
	Mr. Chairman, we believe that this is a plan that the VA can and will 
execute.  This federated IT management system will enhance IT operational 
effectiveness, and provide standardization, and eliminate duplication.  We can 
realize efficiencies through the reorganization and consolidation.  For example, 
consolidating the more than 100 data processing centers that currently operate 
across the VA into a much smaller number will provide significant efficiencies.
	As we move forward, it is vital that any reorganization not adversely 
impact services to veterans, or unnecessarily affect our employees.  Our first 
principle will be to do no harm for the patients in our world-class health care 
system, and to do no harm to the millions of beneficiaries that depend on checks 
being dispatched in a timely and accurate manner.
	We know that there are no simple lightswitch solutions in any model, but 
we are committed to managing these changes for the good of the department, and 
most importantly for the benefit of the veterans and their families we are 
privileged to serve.
	Mr. Chairman, the president's 2007 budget for VA as you mentioned provides 
$1.257 billion for non-payroll costs associated with IT projects across the 
department.  Broken down, this is a $43.2 million above our 2006 budget.  The 
2007 request includes $832 million for medical care program, $55 million for 
benefits, $4 million for burial, and $366 million for projects managed by our 
staff offices; most notably, non-payroll costs in the office of information and 
technology, and the office of management, to support department-wide initiatives 
and operations.
	VA's IT programs operate in a tight budget environment in 2006.  
Challenges will continue into the upcoming fiscal year, as the VA transitions to 
a new line-item budget, as you mentioned, Mr. Chairman, and continues its 
infrastructure reorganization.
	For development and infrastructure realignment, we are in a strategic 
pause for fiscal year 2006 that will continue somewhat into the proposed fiscal 
year 2007 budget.
	I recognize that VA must improve our execution of the business of IT.  
Establishing the line-item budget for VA's IT program is a step in revamping the 
way we plan and spending dollars.  In the past, IT dollars were spread across 
the department, and could be moved from one project to cover shortfalls in 
another.  Budgets for information technology projects needed only general 
estimates.  However, we are now operating in an environment requiring a 
rigorous, disciplined approach, in order to budget accurately.  This is a 
significant change for the VA.  This year, 2006, will be a learning year for the 
department, during which there will be occasions when it may be necessary for 
the VA to come to Congress to request reprogramming of IT dollars, to make 
adjustments.
	The most critical IT project for our medical care program is continued 
operational improvement to the department's electronic health records system, a 
presidential priority which has been recognized nationally for increased 
productivity, quality, and patient safety.  Within this overall initiative, we 
are requesting $51 million for ongoing development implementation of a new 
system architecture called HealtheVet, which will incorporate new technology, 
new or re-engineered applications, and data standardization, to continue 
improving veterans health care.
	Until HealtheVet is operational we must maintain the VistA legacy system.  
This system will remain operational as the new applications are developed and 
implemented.  This approach will mitigate transition and migration risks 
associated with a move to a new architecture.  The budget provides 188 million 
to operate the legacy system.
	In support of the department education benefits programs for veterans, our 
2007 request includes money for non-payroll cost to continue the development of 
TEES or the  --  to operate the education program.  VA's 2000 and  information 
technology budget request provides 57.4 million for cyber security.  This vital 
function ensures coordination of the development, deployment, and maintenance of 
enterprise-wide security controls to better secure our information technology 
investments in support of all the department's programs.
	In 2005, VA significantly improved its security posture by completing 
certification and accreditation activities for 100 percent of the department's 
operational information technology systems, bringing VA into the Federal 
Information Security Management Act -- FISMA -- compliance, for the first time.
	VA also implemented the department-wide security operations center.  And 
finally, we laid the groundwork for implementation of the security configuration 
management program.  This program is essential to eliminating vulnerabilities 
that expose the VA systems to inappropriate access to information.
	I would like to address the Committee's proposed reductions to VistA and 
other programs in the health care arena.  These reductions would severely 
jeopardize our ability to maintain the VA's electronic health record, 
acknowledged by independent analysts like Gartner, the Rand Corporation, and 
even Consumer Reports, to be a gold standard for electronic medical records 
systems.  And this is at a time when we are trying to achieve President Bush's 
vision to have electronic records capability for most Americans by 2014, and to 
implement the associated executive order.
	The Committee's proposed reductions seriously hamper efforts focused on 
replacement of the existing VistA legacy health care infrastructure, what we 
believe to be the critical foundation for meeting future system requirements.  
Much like the venerable Boeing 747 that transformed air transportation and 
served us well for many years, the functionality that VA's VistA legacy system 
currently provides is without peer.  But this system, like the 747, now needs 
updating.  VistA legacy has evolved and grown over the years to meet the 
challenging VA health care delivery needs.  The software has become cumbersome 
and time-consuming to maintain, and must be replaced so that VA can take full 
advantage of future health care technologies, and support future care delivery 
models that will improve service and lower costs. 
	Please understand that there is no other electronic health record that 
could be deployed throughout the VA to meet patient needs.
	Let me make a change here, too, and note that if you look at where we are 
with the enrollment population of 7.6 million, and a unique patient treatment 
population of about 5.3 million veterans expected, and look what it costs to run 
this system,it comes out to be about $80 per individual.  And I will tell you 
that if you look at just repeating one test, which this system allows us not to 
have to do, as the civilian community does, it pays for itself in a sense, in 
that way. Eighty dollars to maintain a record for an individual veteran for a 
year is not an excessive cost.
	Depriving VA of the development funds we will need to replace the 
underlying architecture could disrupt ongoing maintenance required for safe 
operation.  It would also preclude support for new activities, such as enhanced 
charge capture, revenue collection, and transition to an architecture that will 
be interoperable with the DOD's development plans.  By making an investment now 
to transform the legacy system to the new environment, we will be positioned to 
take advantage of rapidly emerging technology, gene therapy, more effective 
drugs optimized to the patient, telemedicine, and superior clinical knowledge 
support, that a modern system structure would provide.  If funding cuts are 
implemented, we will also delay the resolution of our current process 
inefficiencies, such as clinical scheduling and waiting-time monitoring, 
potentially for years, and will require additional funding in the future, 
perhaps significantly more than we are asking for now, to address those 
inefficiencies.
	We look at things like the advanced clinic access program that we are 
running to try and reduce waiting times.  That requires more than just the 
additional space that we are putting on the scene for the doctors and nurses and 
health care people to use.  It also requires this health care record system that 
they use every time that they see a veteran.
	Mr. Chairman, I conclude by reaffirming VA's commitment to faithfully 
serve and support our veterans, and to be good stewards of the taxpayers' money.  
I would add in here that I don't want confrontation, either.  I understand that 
we have some differences on how this goes forward.  The senior management 
sitting at this table that effectively runs the VA, or manages the VA, has come 
together under the secretary's direction to agree on a federated model as what 
we need to go forward.  The secretary signed off on that, directed us to 
proceed, and this senior management will be required to pay attention to it 
across the implementation phase.
	So I look forward to future appearances before you to report the continued 
success of VA's ongoing and future IT programs throughout the department, and 
that concludes my testimony, and we will attempt to answer the Committee's 
questions.  Thank you very much for this opportunity.
	[The statement of Mr. Mansfield appears on p. 34]

	MR. BILIRAKIS.  Thank you, Mr. Secretary.  I am going to recognize us up 
here for a 10 minute questioning period. Whether we have a second round or not, 
I guess we will determine at that point in time. Hopefully, 10 minutes will be 
at adequate and keep us on the course that we are on.
	Mr. Buyer, to inquire.
	MR. BUYER.  Well, thank you, my colleagues.  Allow me to open with some 
few questions here.  It was a pretty good meeting I had a few weeks back in 
Bloomington, Indiana, at a hospital that is working with McKesson.  And they 
also wanted to upgrade their IT system, and they wanted to move toward 
electronic medical records, and were asking "How do we get this done?"
	So McKesson came in and gave them some advice and some counsel, and this 
is a small hospital.  And the hospital Administrator hires a hotshot CIO, okay?  
And the medical chief makes the CIO his next best friend.  Those guys are 
standing there together like this, okay?  I am not kidding --  I am sorry, Mr. 
Chairman.  I didn't mean to interrupt.  
	And it was fascinating to see how this CIO and the chief medical officer 
of this Hospital were best buds, and that is the way it is supposed to be, okay?  
It is supposed to be like that, because they had buy-in.  And that medical 
director understood what the CIO was going to implement was going to increase 
the quality of his care, and create efficiencies, and he had complete buy-in.  
And it was wonderful to watch this staff, and the presentation, and hear that.  
And I sat there sort of in amazement because that is not what I sense and feel 
from your staff.  
	And that sort of disappointed me, because I can give the same analogy.  VA 
goes out there and they get a hotshot, he is sitting to your right.  He is one 
of the best in our country, and he wants to help transform the VA to set a 
standard and a model for our country that can be leveraged across our health 
system.  So much so that, as you said in your testimony the president recognized 
that.  Congress recognizes that.
	And so we are sort of miffed as to why, you know, Mr. McFarland and Dr. 
Perlin don't exchange Christmas cards.  You should.  I don't know if you don't.  
Maybe you think I'm overstating; I am not trying to be cute.
	We have been pretty tough on your IT budget.  Last year, not only us, but 
from our leadership, and the appropriators took action, the Senate took action, 
and the trend line is not favorable with you, right?  Is that a fair statement?
	It is not favorable because we don't have a good comfort zone.  So you 
have this 25 year-old VistA model that we invest a lot of money in, and so we 
have this shack.  And we have this shack that is working kind of well, but we 
are investing a lot of maintenance on shack.  And on the development side, you 
want to continue to build on a sun room, and put in a big swimming pool, plus a 
four-car garage.
	Maybe every analogy is imperfect, okay.  But you know where we would like 
to take you?  And please, tell me if you think I am crazy, but here is where we 
would like to take you.  We want you to make sure that you have a one 
architecture.  We want to empower your CIO for the one architecture.  His job is 
not to say "No."  His job is to make sure that whatever on the business side or 
the development side fits in the one architecture, okay?  And we would like for 
you to transition out of the VistA and get to a new system.  So as you migrate 
to the new system, we want to make sure that whatever you are working out there 
on the development side, as you re-host, that it fits.
	And so in order to make all that happen, to whom do you turn?  He is 
sitting to your right, that from whom you are to seek the counsel, okay?  Not 
the one to your left.  Now, if you say, "Steve, you know what?  Let me tell you 
where I disagree with you."  Please, we need to know that.  So let me turn to 
you, Mr. Secretary.
	MR. MANSFIELD.  Well, I think the analogy can be the situation that you 
referred to with your arms around the counsel is a situation where I've got my 
one arm around this one, and one arm around this one.  And this expert -- I 
agree with you, God bless us for having him, coming back out of retirement to 
come in and do something positive for the VA and I recognize that -- and he is 
my expert on IT, the Secretary's expert on IT.  But he came into a system where 
his predecessors have built the system that we have.  And it is not just my arms 
around these two; it is my arms around these two, and 230,000 employees out 
there, whom we have got to make sure all get the message, and all get it right, 
and we go forward as mentioned before with doing no harm.  And I think we have 
come a lot further in the period that I've been up here talking to you in an 
effort to get there and move forward.
	And again, I would make the point that after reviewing Gartner's report, 
which we asked them to come in and give us some recommendations, and after 
talking to, again, the senior leadership of the department and having them go 
through some intense discussion and debate, and come up with the answer, the 
Secretary decided that we are going forward on a federated model.  And we are 
going forward on that.  And we are making process.
	The other part of it is I would agree with you that we are under the gun 
on the dollars.  It just so happens that it kind of works serendipitously, 
because with the re-organization going forward and with this new budgeting 
requirement with the new line-item budget, and the requirement finally to be 
able to get down there and figure out where all these dollars go, and then a 
requirement that we be very careful and come up here and answer to any 
reprograming requests, we are going through some significant changes in this 
organization right now.  And that strategic pause that has been mentioned allows 
us to get through it as we get into '07, start making this thing work.
	MR. BUYER.  You use the word "federated."  Is that federated, as was 
described by Larry Craig, or is there a federated  --  is there a new federated 
model?  I mean, first of all, you give testimony to Larry Craig, and then you go 
back to Gartner and say, "Okay, we have made a consensus again on a federated 
model."  Then you seek counsel from them.  You have three definitions of the 
word "federated" right now.
	MR. MANSFIELD.  We asked Gartner to come in with a fleshed-out framework 
for what they believe a federated model would be.  In other words, they talked 
about the different options.  They have come back, the IT director contracted 
with them, they have come back in with the Gartner model for a framework of what 
a federated model should be, and we are in the process of reviewing that at the 
senior level right now, and are getting very, very close to accepting that 
framework, which then will be the basis that we use to go forward and make -- 
	MR. BUYER.  Then let's cut to the chase.  Are you going to follow the 
implementation plan of the Gartner federated model?
	MR. MANSFIELD.  I am listening to a debate that is going on with the 
senior management about what that model means and how we need to go forward, and 
basically the answer is we are going forward in an effort to put that framework 
in place so that we have something to take down to the lower levels and start 
implementing this plan.
	MR. BUYER.  I don't know how to respond to that, Mr. Secretary.  I really 
don't.
	MR. MANSFIELD.  Mr. Chairman, let me make a point.  We went through this 
last time with the discussion about where we were, when I was up here in 
September, I think, and the issue is we hired Gartner.  They are working for us.  
We sent them out there to do a job for us, then come back with some 
recommendations.  But they are not running the department.
	MR. BUYER.  I understand.
	MR. MANSFIELD.  They are not running the department.  This management 
group here is responsible for making sure things work, so as we go through -- 
	MR. BUYER.  Well, look from our perspective for just a second.  Four 
hundred and eight members of Congress, basically you are saying they are flat-
out wrong.
	MR. MANSFIELD.  No, sir.  I didn't say that.
	MR. BUYER.  Wait a second.  Because you say, "Your centralized approach we 
are not going to follow in the VA.  Even though I spent all this money on 
Gartner, we are not going to follow that."  Then you tell the Senate, "We are 
going to follow a federated approach."  You go back to Gartner and you get their 
opinion on a federated approach, and then we end up with sort of a "federated 
light."  So instead, you then tell the Senate, "we are going to go here," and 
then you come back and tell us, "here," -- you are still in a management 
position over here.  We want to get you over here, and we are walking the other 
direction, because you are trying to get consensus.  I am challenged.
	But can I turn to Mr. McFarland for a second, may I, Mr. Secretary? 
	MR. MANSFIELD.  Yes, sir. 
	MR. BUYER.  I would like for your opinion.  Have you seen what we have 
submitted in our budget views and estimates to the budget Committee, from this 
Committee?
	MR. MCFARLAND.  Yes, sir.
	MR. BUYER.  All right.  We came in there and we have zeroed out some of 
these development programs.  And we have done that because we are anxious for 
you to set the architecture in place, to then move to the new system, and be 
able to re-host development.  And we are concerned.  So we are in this sort of 
strategic pause.
	Now, from a business standpoint, is that the right way to approach it, or 
the wrong way?  Help us out here in your counsel.
	MR. MCFARLAND.  Well, I think it is a good approach from a business 
perspective.  I can't pass on which pieces of the development side are good, 
bad, otherwise, can't pass on that because I don't have insight into that area.  
It is not an area that the IT organization has ever managed here.
	Until we get a chance to dig into each of those, through detailed analysis 
of the budget and the spend plans, which we are trying to do now, I can't tell 
you whether those are good pauses, bad pauses, intermediate pauses.  I can't 
answer that.
	I can certainly answer the areas which my department controls, which is a 
small amount of the budget, but I can answer those questions.  I would have to 
defer to Dr. Perlin as to whether those are good pauses or bad pauses.  Only he 
can answer that.
	MR. BUYER.  All right.  Dr. Perlin?  This is my last question.
	DR. PERLIN.  Thank you, Mr. Chairman, for the opportunity to respond.  I 
think they are exceptionally dangerous pauses.  I know this Committee would 
never knowingly do anything to jeopardize the ability of this department to 
deliver safe, effective, and efficient care.  There are two pauses -- 
	MR. BUYER.  Wait a second.  Let me say this --  you just used a very 
powerful word.  You said, "If we zero this out, that it is dangerous."  This is 
new development.  "Dangerous" would be if I did something to your system that 
would affect ongoing operations.  This is new development over here, which sets 
a different standard.  So you have just used the word "dangerous."  How can it 
be dangerous if it deals with a new development, as opposed to affecting your 
ongoing operation, Dr. Perlin? 
	DR. PERLIN.  There are two components in the views estimates.  And first, 
let me reiterate how much we appreciate your great support for VA in the overall 
budget, and your concern for veterans.
	The two components, as you know, which are reduced, includes: One, the 
operation of the current VistA system.  The second is the aspect that does 
provide development for things such as the health data repository.
	The health data repository is the current relational data set that would 
allow us to do things like drug error checking.  It would increase, as the 
deputy secretary said, the ability to have data which are interoperable with the 
Department of Defense, and to allow medical care to be informed by the past 
experience of the servicemember during military service.
	The HealtheVet VistA component is not an application, or it is not an 
application that runs on the new architecture; it is the new architecture.  It 
is what will transcend some of the limitations of the current architecture, 
which happens to provide very good clinical care.  It has been listed by many as 
the gold standard.  Matthew Morgan, Canadian Journal of Health Care Papers 
listed it as that, and the basis for not only safer and higher-quality care, but 
also tremendous efficiencies on the larger medical services budget.
	But the HealtheVet VistA would allow greater maintenance efficiencies to 
occur, as well.  Pharmacy engineering and IT support are an incredibly relevant 
area to the issue of safety.  The new pharmacy package would allow the inclusion 
of pharmaceuticals that are not prescribed within the VA, will allow the 
inclusion of over-the-counter herbal supplements that have tremendous 
interactions with the prescribed pharmaceuticals that a patient might use.  
Similarly, for VistA imaging, in laboratory, the ability to manage those data 
timely and effectively has tremendous impact.
	I would note that we agree fully in VHA of the need to transform, and 
desire to transform.  We concur absolutely that we should be more efficient in 
the corporate purchasing, in management of generic IT, and we fully support the 
home for the enterprise architecture, and indeed, the approval of each and every 
development program, and the control of the budget in the Departmental Office of 
Information and Technology.  Thank you.
	MR. MANSFIELD.  Mr. Chairman, let me just follow up on that, and reiterate 
that point that Dr. Perlin made with the reference to Mr. McFarland's testimony.
	In the federated model, the IT, the CIO at the IT office will be in charge 
of the architecture, and also have oversight over all budgets including 
development budgets.  They will also make sure that standardization operates 
across the department, not just in operations and management, but also in the 
development side.
	And also in addition to that, the CIO will be the overseer of the OMB 300 
plans. 
	And then I have decided that any proposed reprogramming issues are going 
to have to be cleared through the IT's office, since they deal with budget 
issues.  So he will have, in the near feature, the ability to make sure that the 
architecture is followed, that the budgets are followed, and that we do get what 
we want here, which is standardization, and that we follow the IT budget.
	MR. BUYER.  Mr. Chairman, in conclusion I think our oversight should only 
at this moment in time intensify.  Because the last thing we could want is, we 
have legislation that we have passed 408 to nothing, the Senate over there being 
deferential to the Administration, and what we don't want to happen is, is a 
continued walking to the status quo, so we end up with a "federated light," and 
we then get pushed back from the Senate by way of saying, "Well, you know," to 
the house, "you don't need to do anything legislatively, because they are 
already taking action," and what we are doing is pushing this down the road even 
that much further, and we are not even being able to perfect efficiencies.  With 
that, I yield back.
	MR. BILIRAKIS.  Thank you, Mr. Chairman.  
	Mr. Strickland to inquire.
	MR. STRICKLAND.  Mr. Chairman, I defer to you as the Chairman of this 
Subcommittee, and I will ask my questions when you have finished, if that is 
okay.
	MR. BILIRAKIS.  I guess it is okay.
	Some of us have worked for the federal government in another life.  I 
didn't do it all that long.  I was an engineer before I went on to law school, 
and I was with the Federal Power Commission for a while.  I know that there is a 
feeling sometimes of these guys on Capitol Hill being an ivory tower. That they 
are generally pretty darn educated and hard-working people, and that sort of 
thing, but they think they know everything about everything, and they really 
don't know very much about anything.
	Now I don't know how you perceive us,  I know that Dr. Perlin is going to 
be expert, certainly, when it comes to health care. Mr. McFarland, certainly, 
when it comes to IT, and the rest of you, as far as your areas of concern.  You 
are not under oath here.  I know that in Energy and Commerce, where I also 
serve, for the Oversight and Investigations Subcommittee, every hearing is under 
oath and that sort of thing.  We haven't done that here, and I don't know that 
it is necessary to do it.  
	I would like to ask you to be candid with us.  Are we wrong?  Is Mr. Buyer 
wrong?  He asked you to tell him, Secretary Mansfield, he asked you to tell him 
if he's crazy.  You don't have to use that word, but is he wrong?  Am I wrong?  
Are we wrong here to have heard for a period of years that there is an interest 
in IT? A real sincere interest in IT: "All we need is additional monies," and 
"we need to hire an expert," and we hired an expert, and he has given us his 
opinion," or "they have given us their opinion, and I don't know."  I understand 
Mr. McFarland, who probably has more expertise in this area than any of us do 
tends to favor, maybe, the opinion of the expert that was hired and an awful lot 
of money was spent for.
	I don't know,  I have an engineering degree but I'm here to tell you, my 
wife will tell you, I can't even do the least little thing at the house.  So I 
am not technically minded in spite of the fact that I have that degree.  I am 
not sure that I understand big differences between the centralized model and any 
other model that you have made up your mind you want to do.  I think you 
probably had already made up your mind on the federated model before we spent 
millions of dollars on the expert.
	Anyhow, are we wrong?  Are we on the wrong track here?  Are we trying to 
shove something down your throats that you think is a bad thing for purposes of 
the veterans?  Is Mr. Buyer wrong when he talks about Dr. Perlin and Mr. 
McFarland not sending Christmas cards to each other?  Is that the kind of a 
thing that we have in our VA that we think so very strongly about?  Just talk a 
little bit,  talk a little bit on my time, here.  Go ahead, Gordon.
	MR. MANSFIELD. Thank you, Mr. Chairman, and I would preclude my frank 
comments by a couple of statements.  Number one is I have been up here, at this 
table in fact, in another life, and I don't think my attitudes or my, thoughts 
changed from there to here.  You know, we are all here to do the best thing we 
can to take care of veterans who have served this country and earned benefits, 
and deserve those benefits that they have earned.
	MR. BILIRAKIS.  Are we open-minded in the process?  Are we turf-conscious, 
or are we not turf-conscious in the process?  The worst word I think in the 
English language is "turf," not "Turk."  Turk is all right, but turf,  that is a 
big problem up here.  It is a big problem, we are all concerned about protecting 
our turf.  Is that what we have here?
	MR. MANSFIELD.  That is Bill over there.
	MR. BILIRAKIS.  Bill?  A little bit of levity.
	MR. MANSFIELD.  I wanted to make a couple of other comments, too.  And 
make sure that I firmly believe these.  We are here because the Constitution of 
the United States mandates that -- for example, the Congress is the one that 
takes taxpayers' dollars and allocates them to the executive branches.  You are 
the folks that set up the laws that we are required to follow through on -- 
	MR. BILIRAKIS.  You can tell us -- forgive me for interrupting, but you 
can tell us.  Come on, let's be candid here.  Let's not bring in the 
Constitution.  You can tell us, are we wrong?  Are we on the wrong path here, in 
terms of what we think should be done, and maybe should have been done long 
before now?
	MR. MANSFIELD.  You are definitely on the right path in that IT needs to 
be reformed and made more efficient, and work more effectively, and that the 
dollars need to get more return for investment.  You are definitely right on 
that.
	You are right that we sent out and had Gartner come in with the report, 
but as I said, our belief is we hired them to do a job for us.  They came in 
with more than one recommendation.  And we took into consideration our ability 
and our requirement to manage this department, and then the Secretary's desires, 
and came up with an answer that was different than yours.  
	I surely am not going to tell the Chairman that he's crazy when he can get 
a 408 to nothing vote on the floor.  That obviously means that he knows what he 
is doing in this area and this arena, and I don't think that I want to get 
caught between this side of the Hill and the other side of the Hill.  But they 
both, as I remember, are involved in making final decisions.
	We believe that this is the way to go.  This is the way to go, and a start 
towards reforming the VA's IT.
	MR. BILIRAKIS.  How many starts have we had?
	MR. MANSFIELD.  This is the first one that I have been involved in, sir.
	MR. BILIRAKIS.  Well, I appreciate that.  This past October, you stated 
that the Secretary has recently made a decision to proceed with implementing the 
federated model in reorganizing VA IT. That is the federated model, not the 408-
to-zero model, but the federated model.  I realized that that did not become 
law, that mandate, but certainly it is a pretty good idea how Congress feels 
about it.
	Your comments before the Senate, the whole point of that it was going to 
take 12 to 18 months to implement the Federated model.  This was in October,  
four months have passed.  Could you tell us what specific steps the Department 
has taken on implementing the Secretary's federated model?
	MR. MANSFIELD.  I just asked the expert how long it would take to 
implement a centralized model, and he said basically the same time.
	One thing that I want to put on the record here is that I am operating on 
some of the lessons I learned from the Core FLS issue.  And one of those is to 
make sure that we have got it right up front, that we do not move forward until 
we make sure in the management ranks that we have got it right, and we are 
prepared to roll it out, and we can make sure that the department can follow 
along with the instructions we are given.
	That means communication, that means training, that means a lot of things.  
But rather than step forward a day early, I would rather make sure that we have 
got it right, so that we know it will work when we put it out there.
	MR. BILIRAKIS.  Is the problem, Gordon, that we keep changing people at 
the top? Therefore we have lack of stability and consistency and whatnot?  You 
indicated under your watch, so to speak.  Is that a problem?
	MR. MANSFIELD.  Well, as I testified I think in September, I came in as 
Deputy Secretary about the same time Mr. McFarland came in, and the first 
assignment we had together was to go down to Bay Pines and find out what was 
going on.  And I went down there and got down and talked to be GS-4s, fives and 
sevens and eights that were trying to make that system work, and I learned some 
lessons.  And I am trying to apply what I learned there to what we are doing 
here.  
	MR. BILIRAKIS.  All right.  
	MR. MANSFIELD.  And one of the things is that we have got to get it right 
before we roll it out, to make sure we will make it work this time.
	MR. BILIRAKIS.  All right, so what we are talking about is we are 
discarding the, recommended even by the GAO, the centralized model, and we are 
focusing on the federated model?  The decision has been made by VA to go 
federated, right?
	MR. MANSFIELD.  October 19th, Secretary Nicholson signed a document saying 
we are going to proceed with the federated model.
	MR. BILIRAKIS.  Okay.
	MR. MANSFIELD.  Those are -- and I will tell you, that is based on this 
management team's recommendation, discussion with them, where he went around the 
table and asked each one, "Is this what we need to do, is this what we need to 
do, are you in agreement with this?" And those are our marching orders from the 
person that is responsible to give us direction.
	MR. BILIRAKIS.  Would you mind if I ask Mr. McFarland a question, direct 
question?  Do you have any problem with that?
	MR. MANSFIELD.  Sir, you can ask Mr. McFarland any question you want.  I 
understand that that is why these folks were brought up here.  But I want to 
make a point --  well, no, I won't, either.
	MR. BILIRAKIS.  Mr. McFarland, I am sure anybody would agree when it comes 
to IT, you are more expert than probably all of us put together.  Do you buy 
into the federated model?  You are the one who is going to have to do it, aren't 
you?  You are the one who is going to have to implement it, oversee it, et 
cetera, right?
	MR. MCFARLAND.  Well, I have to oversee the operations and maintenance 
side of it.  The development side of it in a federated model is in the hands of 
the Administration.  So, I have oversight over the budget, as you have given me.  
But from the operations and maintenance side, that is the side that I would 
manage in a federated model.
	MR. BILIRAKIS.  Go ahead, Mr. Buyer.
	MR. BUYER.  Your testimony to this Committee and your counsel to us was 
that you endorsed a centralized approach as presented by Gartner.  And that 
testimony has not changed today.  You still believe in the centralized model, as 
utilized in the business community.  I mean, you still believe in a centralized 
model, but you have had to move toward a consensus with regard to a federated 
approach which you are prepared to implement under the leadership of the VA; is 
that a fair?
	MR. MCFARLAND.  That is correct.
	MR. BUYER.  Okay.
	MR. BILIRAKIS.  Okay, that being the case, and we all work for somebody 
else -- we work for a heck of a lot more people that you do. Well, maybe I guess 
the same number.  The point is, that being the case, your superiors and your 
colleagues here have all decided to go federated.  You can live with that, and 
you feel that they do can do the job with that as adequately as you would have 
with the other model, that you preferred?
	MR. MCFARLAND.  Sir, any change from where we are today is a good change.
	MR. BILIRAKIS.  Yes, are you a lawyer?
	MR. MCFARLAND.  No, sir.  But in the last two years, I have been learning 
how to -- 
	MR. BILIRAKIS.  You are learning how. 
	MR. MCFARLAND.  We would like to clear the record, sir.  My wife, Susan, 
and I did receive a Christmas card from Dr. Perlin and his lovely wife.
	DR. PERLIN.  And for the record, we received one from --  
	MR. BILIRAKIS.  You received one.
	MR. BUYER.  I am going to have to leave, and we want to continue to work 
with you, and these are matters of policy.  It is hard, it is challenging.  We 
are going to the same goal.  We embrace the same goal, Mr. Secretary, and to the 
Under Secretaries, I say we are going to get there.  And the more we engage each 
other, the more we bang it through, and we are going to get a good system.  The 
reality about Capitol Hill is, is even though we would love to move in bold 
strokes, the reality is we move in increments, and we recognize that.  So you 
are not moving at a pace which we would desire, and we will deal with the 
Senate's as deferential, but we are going to keep the pressure on, that is the 
reality.
	I want to switch to a completely different topic, and I want to bring to 
your attention a great concern of mine, and I believe of the Committee, and it 
deals with the tone and tenor of the nation.  So Secretary Tuerk, I bring this 
to your attention.
	In Indiana, we have an individual who was just killed, Sergeant Ricky 
Jones, from Kokomo, Indiana.  His family home has been vandalized, has been 
egged.  The family have received phone calls that say, quote, "I am glad your 
son is dead."  So I am about as outraged as I can be and must speak against such 
behavior toward our sacred dead.
	So what I would like to do is work with you, Secretary Tuerk, and work 
with the secretary of the VA, to reach out to this family in Indiana.  Now, 
there is something that is occurring in the country called patriot riders.  And 
my sense is, you are about to have a thousand patriot riders show up in Kokomo, 
Indiana.  And the last thing I want is violence, but I just believe that 
everyone would share the thought that we are equally appalled that something 
like this would be occurring.
	But I think we need to have a voice from the VA, and I am going to speak 
with the family today, and I am going to go to the funeral.  I don't know what 
your plans are but Under Secretary Tuerk, if the Secretary or Gordon Mansfield, 
I know you have busy schedules, but if you can be there, I would like for you to 
check your schedule.  This is your department.  And I would like for you to 
reach out to this family, and I would like the VA to send out a bold message, 
because you are responsible for this individual's body, and for how we care for 
this individual, and make sure that his life, that individual's life is 
recognized.  Let me turn it to you, Secretary Tuerk.
	MR. TUERK.  Mr. Chairman, I don't know whether I can articulate outrage 
and disgust any better than you just have.  You have my solemn commitment that I 
will work with you to properly honor this servicemember and his loved ones. I 
cannot think of anything that would take precedence over joining you in Kokomo, 
Indiana, to help this family get through its hour of need.  And I assure you 
that I cannot anticipate that my boss, Deputy Secretary Gordon Mansfield, would 
have a priority for my time that is higher, either.  So I look forward to 
traveling with you, and doing right by this family.  You have my assurance of 
that.
	MR. BUYER.  All right.  They are not constituents of mine.  I am just 
appalled.  If the Secretary can't make it, Gordon, you know, if you can deliver 
a letter from the Secretary of the VA to the family, or something in person?
	MR. MANSFIELD.  We will bring the president's certificate, and we will 
check with your folks -- 
	MR. BUYER.  Let us have our staffs work together.
	MR. MANSFIELD.  Do everything we can, yes.
	MR. BUYER.  We can stand to send a message to the country that this 
conduct is pretty outrageous.
	MR. TUERK.  Yes, sir.
	MR. BUYER.  All right, thank you.
	MR. BILIRAKIS.  All right.  Thank you, Mr. Buyer.
	Gordon, I have two questions and I am just going to ask them. One I 
started to ask, and then I am going to ask you to respond to them within a week 
in writing, and give you a better opportunity to do that. We are expecting votes 
at 11:30, and I thought it would be only fair to go through the rest of the 
members, to give the rest of the members an opportunity here.
	The one is continuing on what I recently went into, is your testimony in 
October regarding implementing the Federated model.  You said it was going to 
take 12 to 18 months to implement it.  This was in October.  So my question is, 
four months have passed  --  
	MR. MANSFIELD.  Excuse me, sir.
	MR. BILIRAKIS.  It is all right, sir. Four months have passed.  Could you 
please tell us what specific steps the Department has taken in implementing the 
Secretary's federated model, first question.  Hopefully, a response in writing 
within a week.  Is a week fair?
	MR. MANSFIELD.  Yes.
	MR. BILIRAKIS.  All right.  Second one -- 
	MR. MANSFIELD.  You want that in writing? 
	MR. BILIRAKIS.  Yes, I want that in writing.
	In 2006, Congress appropriated roughly $26 million for Core FLS, here we 
are again.  However, in a VA letter to the House Appropriations Committee that 
listed VA IT-related and the amounts to be spent for FY 2006, it appears that VA 
reprogrammed monies for Core FLS, and put the monies into a new program called 
FLITE. You are not surprised that I am bringing all this up --  recently, my 
staff requested briefings on the FLITE program, formerly Core FLS.  According to 
VA, this is a new program and not a rebranding of Core FLS.  Please explain why 
the VA reprogrammed VA IT monies into a new program which is called the FLITE 
program, and whether or not Congress was notified of the reprogramming as 
required by law.
	I will submit these to you so you can have the question exactly as I asked 
them.
	MR. MANSFIELD.  You want the second one by -- in writing?
	MR. BILIRAKIS.  Within a week.
	MR. MANSFIELD.  Yes, sir.
	MR. BILIRAKIS.  If you would do that, I would appreciate it.
	MR. MANSFIELD.  Will do, sir.
	MR. BILIRAKIS.  Again, I thank all of you for appearing here, and would 
now turn the query over to Mr. Reyes.
	MR. REYES.  Thank you, Mr. Chairman, and gentlemen, thank you for being 
here.
	The Gartner report recommended that the VA adopt a centralized IT model, 
or the VA's adoption of what you are terming a "federated model," and it also 
cited that the poor state of the VA's investment management process was a reason 
for that recommendation.
	However, Mr. Secretary, your written testimony states that you are, and I 
am quoting, "pleased to report that the VA is making steady progress in adopting 
a federated management model that will result in considerable efficiencies."
	My question is, how have you improved the poor state of your investment 
management process?  And how certain can this Subcommittee be that the 
efficiencies that you are promising will in fact be realized?
	MR. MANSFIELD.  Mr. Reyes, those are good questions, and I would make the 
point that in addition to the reorganization, for the first time ever, in fiscal 
year 2006 the VA is required, and has an IT line-item.  And that means that we 
have to ensure that we get the programs under that lined up and accounted for.  
And it also means that we are going to have to be more rigid in our accounting, 
more accurate in our accounting, and ensure that we do it right.  And I would 
tell you that, sir, I have to unfortunately say that we have not always done it 
right in the past.
	The second thing is that in the reorganization as we move forward 
combining the IT line-item, and the reorganization, the CIO, the Assistant 
Secretary for Information Technology is now in charge of reviewing the OMB 300 
programs, which gives us a better chance up front to figure out exactly what the 
budgeting and finance requirements are.  So that is a starting point.
	The other point is that no matter which program you went to, centralized 
or federated, you would still have the opportunity in making sure that the 
programs that the IT folks are going to be responsible for, management and 
operations, can be standardized and in many cases consolidated, and that is 
where we believe we will be able to realize the first savings in this program.
	MR. REYES.  I guess the frustration that I hope you know we are feeling 
is, let me give you one example, and it deals with this, what in your testimony 
you referred to are "strategic pauses."  And in your testimony, you say that 
these "strategic pauses" pay for development and infrastructure realignment in 
fiscal years 2006 and 2007.  The frustration deals with trying to understand 
what, in real terms, the "strategic pause" means.  Why, when we know the need, 
when we spent millions of dollars on a recommendation with the Gartner report, 
why are we in a "strategic pause?"  Can you explain that to me?
	MR. MANSFIELD.  Yes, sir, and still I would make the point again for the 
record that we are following one of the recommendations of the Gartner report.  
They came in with a number of recommendations, and as I said, we went through a 
process within the department to determine how to apply to the department.  The 
senior management team here in conjunction with the Secretary made a decision to 
go to the federated model.  So that is where we are in that sense.
	And I think the answer to the question is, we just have to, you know, work 
our way through reorganizing the whole IT function of the department.  It isn't 
just management and operations that is going through a reorganization.  I have 
directed the under Secretaries of the administrations to go through a process to 
make sure they examine and do a reorganization on their development functions 
which are still left under their control in the federated model.
	MR. REYES.  But if you accepted the recommendation of a "strategic pause" 
in the Gartner report for this resetting, of the prioritization of the IT 
function, why in the world wouldn't you accept the recommendation that it be a 
centralized, versus what you are calling a federated model?
	MR. MANSFIELD.  Well, the strategic pause is actually applied to the 
development function, not the management and operations.  So the transformation 
that is going forward in the management operations sense is a big issue for the 
department.  While we are going through that, and while we are doing an effort 
to conform the requirements that we have on the IT budgeting, another major 
project that the department has never done before, we are doing it for the first 
time this year; and as we are looking at making sure that the OMB 300s are 
reviewed in a timely and accurate manner, that gives us the opportunity, with 
reduced funding as directed by the Congress to go forward, with a strategic 
pause, to make sure we can get through the reorganization, to make sure that we 
can  --  and at the same time, reorganize, or refresh the development programs.  
And that will allow us, then, to move forward, probably towards the end of '07 
or '08 with new development programs that we will be recommending in future 
budgets.
	MR. REYES.  Okay.  So, why haven't we seen a detailed plan of what you 
intend to do?  Because the concern that I know I have, and maybe perhaps some of 
my colleagues, is that when you came in with your budget request, it seeks 
funding for certain programs that ultimately may not be consistent with your re-
hosting efforts.  So where are we on having a detailed or comprehensive plan of 
what you intend to do and what it is going to look like, so that we can have 
some assurances as the Subcommittee on Oversight, that you are not going to -- 
that we are not going to be funding programs that will be obsolete once, 
whatever this plan is, will get implemented?
	MR. MANSFIELD.  And that is exactly what a strategic pause can allow us to 
do.  We won't be going forward with programs until we get the final decision 
made on what the standards are, and what service level agreements are, and what 
we exactly have to do to carry forward.  So this strategic pause I think, sir, 
allows us to do what you want us to do, which is make sure we don't spend money 
where it shouldn't be spent.
	MR. REYES. What makes the VA so unique that you can't follow the industry 
standard?  I mean, we have got systems that may need maybe a little but of 
tweaking, but that are industry standards, that are state-of-the-art.  From what 
I can gather from your testimony and what I have read about this effort, you are 
going to have islands out there that you are going to connect with bridges, 
instead of one centralized system that everyone will be able to utilize, that 
everybody will be able to train on, that everybody will be able to depend on for 
information.  And that will ultimately make the VA more effective, more 
efficient, and give the kind of service that I know all of us want the veterans 
to receive.
	MR. MANSFIELD.  One of the things that I believe will happen -- I don't 
believe, I know will happen, is that the IT, the CIO will bring industry 
standards to bear, as we move forward in this reorganization.
	But I would make the point, too, that as mentioned earlier, if you are 
looking for the standard, for example, in electronic health records, it is right 
here at VA.  Even though it is on a 25-year-old platform, it has been redone up-
to-date.  And again, as I say, that is a electronic health care record that 
costs us $80 a year per patient to maintain, and I would make the point, too, in 
an announcement by Representative John Porter, about moving towards electronic 
records for the federal employees health benefits plan.  There's an article here 
in the Washington Post that talks about Mr. Porter indicating that the VA has 
been able to do this, and that is the goal they are looking for. So we are in 
effect the industry-standard in health care records, I believe.  And we can take 
it a little bit further to make sure they are brought into the 21st century.
	MR. BILIRAKIS.  Would the gentleman yield? 
	MR. REYES.  Yes, sir.
	MR. BILIRAKIS.  You are, and you can be even more.  We talk about this 
sort of thing should take place, particularly for health care, throughout the 
entire country so that every provider, every hospital, et cetera, et cetera, et 
cetera.  You could be a model, you can be a model.  You are really not a model 
as yet, even though you are probably ahead of everybody else.  We know when the 
problems took place as a result of the Hurricane Katrina, that when you 
transferred patients from, was it New Orleans to Houston, that the equipment in 
Houston was not capable of being able to take what you sent over there to plug 
it in, that you had to reconfigure.  So more work has to be done.
	MR. MANSFIELD.  I agree, sir.  You are talking about an ideal system.  We 
are talking about taking a 20-year-old system and bringing it into the position 
where it can do that.  But I would suggest to you that any other health-care 
system in that area right now is probably digging out their paper records and 
trying to figure out what they saved -- 
	MR. BILIRAKIS.  Amen, but we keep falling back on that.
	MR. MANSFIELD. Sir, I don't disagree with you, and that is the plan here.  
And that is why we requested this money to go forward, is we need to bring these 
records further into the current -- 
	MR. BILIRAKIS.  I think Mr. Reyes is trying to  --  you were trying to 
get, I think, to what their decision is going to be, what plan, what model is 
the one that is going to be used.
	MR. REYES.  Exactly.
	MR. BILIRAKIS.  I understood, you know, February the 7th, you were going 
to come up with some sort of decision.  Then it was deferred to the 15th, that 
it was deferred to February the 28th. Then we heard, and I don't know how we get 
this information, but we heard that you all were getting together this morning 
to come up with some sort of a decision.
	MR. MANSFIELD.  Sir, I made a decision that I am not going to be doing 
something without, you know, full review and an ability to look at everything on 
the table, to be able just to come up here and present something to you.
	MR. BILIRAKIS.  All right.
	MR. MANSFIELD.  I think that is part of the problem we have had in the 
past, for example, lessons learned, that we have forced ourselves to do 
something so we can present it to you and say, "Hey, we did it."
	MR. BILIRAKIS.  Yes, sure --  
	MR. MANSFIELD.  And I think that is not right, and I am not going to do 
it.
	MR. BILIRAKIS.  All right.  You should not be frightened of us, or forced 
to do something prematurely or anything of that nature.  Back in October you 
said it would take 12 to 18 months, and I guess you are going to tell us what 
has taken place during those first, those four months, right?
	MR. MANSFIELD.  As I indicated, we went out to Gartner again, which 
everybody up there seems to think is the best way to go, and asked them to come 
back and give us a framework.  Not an actuality, but a framework that would 
allow us to use that to flesh out all the things that we need to do to go 
forward.  And then looking at that framework again, if the first steps are 
wrong, then the next steps are going to be wrong, and by the time we get down 
the road, we are going to have another mess on our hands, and I am not going to 
do that.  I want to make sure it is done right up front, and that we can go 
forward.  At some point, I am going to have to step in and say, "Do it this 
way."
	MR. BILIRAKIS.  Go ahead, Mr. Reyes.  I am sorry, I didn't mean to 
interrupt.
	MR. REYES.  No, you followed up, and that is the very question I wanted 
to, or reassurance that I wanted to, because you know, we like the programs, 
health data repository, scheduling replacement, VistA imaging, all of those.  We 
are spending all these millions of dollars on that, and I think what I want is 
reassurance that those things aren't going to go out the window whenever you 
reset this plan, whether it is that you are waiting, as I understood, from the 
recommendation from the Gartner report, or the combination of the Gartner report 
and the federated plan.  Can you give us that assurance?
	MR. MANSFIELD.  In my testimony I think I pointed out that we object to 
those cuts.  We believe each and every one of those programs is important.  The 
health data repository not only helps us; it is going to help us connect the VA 
and DOD systems in a seamless transition.  Some of these programs are set up so 
that we can increase our efficiency.  For example, with the scheduling, the 
clinical scheduling package will allow us to make sure that the advanced clinic 
access program, that needs more than, as I said -- 
	MR. REYES.  Well, but Mr. -- 
	MR. MANSFIELD.   -- so I am committed to making those programs move 
forward so that they can provide efficiencies in the future.  Part of it is 
though, you know, we have to make sure as we go through, as I said, the 
strategic pause, that we have the ability to do everything that is required.
	MR. REYES.  Okay.  Well, one of the problems is that you are in a 
"strategic pause" on these programs, yet you are asking us to fund the 
development of these programs while you are in this pause.  So I for one am --  
	MR. MANSFIELD.  I would make the point that we have cut it down to those 
we do want to go forward with, and the others that are not so important or not 
critical to operations with VA, DOD, or  critical to scheduling, or other 
efficiencies, are the ones that are in the pause mode.
	MR. REYES.  Okay, but the problem is we still don't have a plan of where 
you are going with that, and that is why I think there is, at least on my part, 
a reluctance to move forward.
	MR. MANSFIELD.  Well, sir, I understand your concern and your reluctance.  
I made the point to the Chairman, to the full Committee Chairman, to the 
Subcommittee Chairman, and I agree that we haven't done it exactly as we should 
have done in the past, and unfortunately we suffer because of that.  I would 
just make the commitment that part of what we are trying to do here is make sure 
that we do do it right.  The strategic pause was to allow us to make sure that 
we got the reorganization and the budgeting issues taken care of, and then the 
planning issues, which are the OMB 300, to make sure that we got that right.  
But I would also tell you that those ones that you mentioned are key to us to be 
able to move forward in efficiencies, in return on investment, and we do want to 
be able to do that.
	However, in addition to the reorganization, as I mentioned, the CIO is 
responsible for ensuring that the management operations backbone of the system, 
the operating systems, are made efficient.  The Under Secretaries are 
responsible for making sure that the development functions, which remain under 
their control, that which is left, conform to the standardization that is set by 
the CIO, conform to the architecture that is set by the CIO, go through a budget 
review that is done by the CIO, but also are done right.  And that is what we 
are trying to do all at the same time.
	MR. BILIRAKIS.  Is it a good idea to do this, to do all this?  We keep 
talking about it. We keep talking about throwing money at it and that sort of 
thing, you want additional dollars.  Is it good for the veterans?  Is it good 
for the Department to do all these things?
	MR. MANSFIELD.  Yes, sir.  Yes.
	MR. BILIRAKIS.  It is good, all right.  We have been talking about it now 
for how many, 10 years or something of that nature?  Again, whatever that period 
of time is, it is something like 10 years.  I realize that you are not 
responsible for your predecessors and things of that nature, Mr. Secretary,  but 
here we are, again.  You can't blame us for feeling that there is something 
happening here, whether it is a culture thing or something of that nature, I 
don't know.  I understand that Gartner gave VA an implementation plan that you 
have not even adopted as yet.  You haven't even made the decision on adopting 
it.  Now I realize I want you to cross all the T's and dot the I's and make 
sure, so we don't have the problems that we had in the past, and throw good 
money after bad, et cetera.  
	There has got to be some sort of limitation of time.  Hell, I retire at 
the end of the year.  Why should I feel confident that something like this is 
really on a good path by the time I retire?  I don't, I mean what are we doing 
here?  We are having problems with adequate funding for health care of veterans 
and things of that nature.  I really have the feeling we ought to take all this 
money and divert it into health care, because we don't seem to see things get 
done.
	MR. MANSFIELD.  This is health care, sir.  You couldn't get the health 
care to 5.3 million patients without the electronic health care record.  And we 
can give it better and more efficiently with more quality, and make no mistakes, 
if we adopt some of these things we want to do.
	MR. BILIRAKIS. Then why are we taking so long to do it?  Why are we taking 
so long to do it?  It is health care, you are right.
	MR. MANSFIELD.  If I could have it done by midnight, I would have it done 
by midnight.  I am pushing this as hard as I can.  The Secretary has made the 
decision.  At senior staff meetings, the Secretary continues to point out to his 
senior management group that this is a priority of the department, and we need 
to move forward.  We are moving forward appropriately to get this done.  But as 
I said, rather than do something just to do something, we want to do it right 
the first time.
	MR. BILIRAKIS.  Okay, so you haven't come up with a model as yet, is that 
right?
	MR. MANSFIELD.  I have the framework.  I have a model that will give us a 
framework, that we can then use to go forward with, and make the final 
decisions.
	MR. BILIRAKIS.  When can we expect -- 
	MR. MANSFIELD.  We can't go out the door and buy something off the shelf 
to do it.
	MR. BILIRAKIS.  Yes, but Gordon, it has been about 10 years.
	MR. MANSFIELD.  Well, sir, let me back up and make the point.  I fully 
understand and appreciate your concerns about this issue.  I fully understand 
and appreciate the fact that the Committee and Subcommittee are concerned about  
--  based on history, unfortunately -- whether we can get it done.  I am just 
telling you that the Secretary is committed, I am committed, this management 
team sitting with me here is committed, and we are moving forward appropriately 
to get it done.
	MR. BILIRAKIS.  Yes. Is wrong for us to mandate a particular date? I think 
it is not fair to you, we are not down at that particular level.  Yet, here we 
are, we feel like we are floundering.  I hate to use the word, "stonewalling," 
because I think you are above that.
	MR. MANSFIELD.  Well, as I mentioned in my conclusion, sir, I think I said 
I look forward to further trips up here to this Subcommittee and Committee to 
answer questions as we go through this, and I am serious about that.
	And the other point I would make is we on a regular basis attempt to brief 
your staffs about where we are, what we are doing, and how we are going forward.  
You mentioned the FLITE briefing that took place.  So we are attempting to 
convey the information and let you know what we are trying to do, but I fully 
expect to be at this table with this microphone in front of me, further on in 
the year.
	And let me, if I may, say -- you mentioned your departure.  Let me say 
thank you, Mr. Chairman, thank you for the service that you have provided up 
here.  Thank you for the direction that you have given to the Department of 
Veterans' Affairs.  Thank you for all the legislation and the oversight that you 
have provided to ensure that those veterans that we are here to take care of are 
getting the benefits and services that they have earned.  I really, really we 
want you to know that I am saying that personally and for the department.  We do 
appreciate all the effort and passion that you obviously are putting into this.
	MR. BILIRAKIS.  Well, thank you for that sir.  
	I have one more question and it would go to Secretary Cooper, but I would 
ask that it may be submitted in writing.  It has to do with the Carnegie Mellon 
SEI report of September on VETSNET, where it stated that there is no credible 
evidence that the program will be substantially complete by December 2006.  The 
report further states that the program could lead to a "never-ending program." 
You are aware, of course, VETSNET has been in development for over 10 years, and 
at a cost of over $600 million, and the program's development continues to 
reside within VBA.  So the question is, under the Federated model, will VETSNET 
still be an open-ended application development project?  And when is VBA going 
to develop rules and standards to application development?  That is the 
question.  We will hand it to you personally, and please respond to that 
hopefully within a week, because I don't want to be unfair with, you know, the 
time line, there.
	Well, Mr. Reyes, anything further? 
	MR. REYES.  No, Mr. Chairman.
	MR. BILIRAKIS.  Well, gentlemen, thank you for coming here now.  This is 
tough on you, but I think it is tougher on us because of the frustration that we 
have.  Now I feel that you are dedicated and you care about the veterans, and it 
has got to be frustrating to you, too.  Somewhere along the line with the time 
that it has taken here, we just keep on reinventing the wheel. It seems like it 
is throwing, maybe sometimes, good money -- you know we have thrown some good 
money after bad over the years.  Something has got to take place here.  I don't 
know what the answer is, but you have indicated your willingness to cooperate 
with the staff.  I know that Art, is very much interested in this, and he has 
been awfully good as far as I am concerned.  He is courteous and whatnot.  
Hopefully, he has been that way in his communications, and relationship with 
you.  We want to see some action for and on behalf of the veteran.
	The hearing is over.
	[Whereupon, at 10:54 a.m. the Subcommittee was adjourned.]
   
<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
